No. 20-1204
IN THE

Supreme Court of the United States
MARK RINGLAND,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I, Jessica Ring Amunson, hereby certify that I am a member of the Bar of this
Court, and that I have this 14th day of April 2021, caused a paper copy of the Brief of
The DKT Liberty Project, Reason Foundation, and Due Process Institute as Amici
Curiae in Support of Petitioner to be delivered to the Court and an electronic version of
the document to be delivered to:
Amir H. Ali
Roderick & Solange MacArthur
Justice Center
501 H St. NE
Suite 275
Washington, DC 20002
(202) 869-3434
amir.ali@macarthurjustice.org

Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for United States

Counsel for Mark Ringland

/s/ Jessica Ring Amunson
Jessica Ring Amunson

